                                                 NATIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                           CLOSEOUT MEMORANDUM

Case Number: 107090037                                                                     Page 1 of 1



         We received an allegation that a NSF employee 1 used his NSF position to pressure a professor to
         host a conference for a nonprofit organization. It was also alleged the employee, an officer with
         a nonprofit organization, 2 misused funds from the organization.

         We did not substantiate that the employee used his position to pressure professors to host a
         conference for the nonprofit organization. However, our investigation with another agency, 3
         concluded the employee: (1) used funds from the nonprofit organization for personal purchases,
         (2) failed to report compensation from the nonprofit organization on his individual tax returns,
         and (3) submitted false financial disclosures to NSF. A U.S. Attorney's Office4 charged the
         individual with violations of 18 U.S.C. § 1001 and 26 U.S.C § 7206, 5 to which he pled guilty. 6

         The employee's sentence 7 included: (1) six months home detention, (2) a $100,000 fine, (3)
         restitution of$15,393 to the IRS and (4) probation for a period of24 months. NSF debarred the
         individual and the nonprofit organization, respectively, for a period of 10 years.

         On November 26, 2012, the employee was discharged from probation. 8       The employee has
         resigned from NSF. Accordingly, this investigation is closed.




         2


         4




NSF OIG Form 2 (11/02)
